Office of Material Loss Reviews
Report No. MLR-10-014


Material Loss Review of the Bank of
Wyoming, Thermopolis, Wyoming




                                  January 2010
                                       Executive Summary

                                       Material Loss Review of the Bank of Wyoming,
                                       Thermopolis, Wyoming
                                                                                        Report No. MLR-10-014
                                                                                                 January 2010

Why We Did The Audit
On July 10, 2009, the State of Wyoming Department of Audit, Division of Banking (WDB), closed the
Bank of Wyoming, Thermopolis, Wyoming, and named the FDIC as receiver. On July 22, 2009, the
FDIC notified the Office of Inspector General (OIG) that the Bank of Wyoming’s total assets at closing
were $72.8 million and the estimated material loss to the Deposit Insurance Fund (DIF) was
$25.3 million. As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the OIG
conducted a material loss review of the failure of the Bank of Wyoming.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.

Background
The Bank of Wyoming was a state-chartered, nonmember bank established in November 1978 as the First
State Bank of Thermopolis. The bank assumed its current name in January 2006. Bank of Wyoming was
wholly-owned by State Holding Company, which also owned two non-bank subsidiaries: (1) State
Holding Company Statutory Trust, established in 2005 to facilitate the issuance of trust preferred
securities and (2) Hot Springs County Title Company, Inc., which was sold in 2008. The bank’s
Chairman of the Board controlled the State Holding Company with approximately 51 percent of the
outstanding stock. The bank opened a branch in Casper, Wyoming, in 2005, which was later sold to
another bank in March 2009, and did not have any other branches at the time of closing.

Audit Results
Causes of Failure and Material Loss

The Bank of Wyoming’s failure can be attributed to the Board of Directors (Board) and management’s
pursuit of loan growth funded significantly with brokered and other non-core deposits. The bank’s loan
portfolio was concentrated in commercial real estate (CRE) and acquisition, construction, and
development (ADC) loans made to out-of-area borrowers, obtained through loan brokers and
participations purchased. Poor underwriting practices and weak loan administration, as well as
deterioration of some real estate markets, translated quickly into a significant decline in the quality of the
institution’s loan portfolio and led to unacceptable levels of classified assets characterized by increasing
delinquency and nonperformance. In addition, the Bank of Wyoming’s Board and management failed to
implement adequate risk management practices to manage the bank’s rapid growth and reliance on non-
core funding. Ultimately, the Bank of Wyoming’s poor asset quality, strained liquidity, insufficient
earnings, and inadequate capital all contributed to its failure.

The FDIC’s Supervision of the Bank of Wyoming

Between 2005 and 2009, the FDIC and the WDB conducted regular examinations of the Bank of
Wyoming in which they identified risks in the bank’s operations. These risks were brought to the
attention of the institution’s Board and management through regular discussions and correspondence,
Reports of Examination, visitations, offsite reviews, and informal and formal enforcement actions. The
FDIC and the WDB recognized the growth in ADC and CRE lending funded primarily with brokered
deposits and time deposits of $100,000 or more and issued an MOU in September 2007 in an effort to


                                   To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of the Bank of Wyoming,
                                      Thermopolis, Wyoming
                                                                                     Report No. MLR-10-014
                                                                                              January 2010

stop unsafe and unsound practices and deficiencies related to the bank’s aggressive growth strategy.
Following further deterioration in the bank’s overall condition and failure to implement all of the
recommendations of the MOU, the Bank of Wyoming stipulated to a C&D that was effective October 17,
2008. The C&D remained in effect until the bank was closed in July 2009. The FDIC and the WDB
closely monitored the Bank of Wyoming’s condition after the C&D was issued until the institution was
closed.

The Bank of Wyoming’s growth in ADC and CRE lending funded with volatile, non-core deposits
resulted in a high-risk profile for the institution. The FDIC’s supervisory response to these risks was
generally timely and consistent with FDIC policies and practices. However, while bank management
took steps to address the extent of its non-core funding based on examiners’ findings at the 2006
examination, management failed to follow through on a commitment to slow loan growth following that
examination. Loan growth, coupled with a decline in the real estate market and weak loan underwriting
and credit administration practices identified in subsequent examinations, contributed to the deterioration
in the bank’s financial condition. This outcome brings into question whether earlier and/or more formal
supervisory action may be warranted in such circumstances, i.e., an extended pattern of loan growth and
non-core funding above peer group averages.

With respect to PCA, the FDIC properly implemented applicable PCA provisions of section 38.
However, PCA’s role in mitigating the losses to the DIF was limited because PCA did not require action
until the institution was at serious risk of failure.

Management Response

After we issued our draft report, management provided additional information for our consideration, and
we revised our report to reflect this information, as appropriate. On January 15, 2010, the Director, DSC,
provided a written response to the draft report. That response is provided in its entirety as Appendix 4 of
this report. DSC reiterated the OIG’s conclusions regarding the causes of the Bank of Wyoming’s failure.
With regard to our assessment of supervision, DSC noted that the June 2007 examination resulted in a
recommendation for an MOU that became effective in September 2007, and that the December 2007 joint
visitation, which reviewed the bank’s overall condition and the Board’s compliance and progress with the
MOU, found that management was not in compliance with all MOU provisions. Based on these findings,
the FDIC accelerated the next examination, at which time examiners determined that asset quality had
further deteriorated to a level that raised significant regulatory concern and DSC took action through an
October 2008 formal enforcement action. Further, in its response, DSC stated that “In recognition that
strong supervisory attention is necessary for institutions with high CRE/ADC concentrations and volatile
funding sources, such as [the Bank of Wyoming], DSC has issued updated guidance reminding examiners
to take appropriate action when these risks are imprudently managed.”




                                  To view the full report, go to www.fdicig.gov
                                Contents
                                                                    Page
Background                                                            2

Causes of Failure and Material Loss                                   2
  ADC and CRE Loan Concentrations                                     3
  Loan Underwriting and Credit Administration                         6
  Reliance on Non-Core Funding                                        7

The FDIC’s Supervision of the Bank of Wyoming                        10
   Supervisory History                                               11
   Supervisory Concern Related to ADC and CRE Loan Concentrations    13
   Supervisory Concern Related to Reliance on Non-Core Funding       14
   Implementation of PCA                                             16

Corporation Comments                                                 17

Appendices
  1. Objectives, Scope, and Methodology                              18
  2. Glossary of Terms                                               20
  3. Acronyms                                                        22
  4. Corporation Comments                                            23

Tables
   1. Selected Financial Information for the Bank of Wyoming          2
   2. Bank of Wyoming’s ADC Concentrations Compared to Peer           5
      Group
   3. Bank of Wyoming’s CRE Concentrations Compared to Peer           5
      Group
   4. Bank of Wyoming’s Non-Core Funding Sources                      7
   5. Bank of Wyoming’s Supervisory History from 2005 to 2009        11

Figures
   1. Composition of the Bank of Wyoming’s Loan Portfolio             4
   2. Bank of Wyoming’s Net Non-Core Funding Dependence Ratio         8
      Compared to Peer Group
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, Virginia 22226                                        Office of Material Loss Reviews


DATE:                                           January 21, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection


                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        Material Loss Review of the Bank of Wyoming,
                                                Thermopolis, Wyoming (Report No. MLR-10-014)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of the Bank of
Wyoming, Thermopolis, Wyoming. On July 10, 2009, the State of Wyoming
Department of Audit, Division of Banking (WDB), closed the Bank of Wyoming and
named the FDIC as receiver. On July 22, 2009, the FDIC notified the OIG that the Bank
of Wyoming’s total assets at closing were $72.8 million and the estimated material loss to
the Deposit Insurance Fund (DIF) was $25.3 million. As of December 31, 2009, the
estimated loss to the DIF from the Bank of Wyoming’s failure had increased to
$28.5 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of the
institution, including implementation of the PCA provisions of section 38 of the FDI Act.

1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of
$25 million or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
This report presents the FDIC OIG’s analysis of the Bank of Wyoming’s failure and the
FDIC’s efforts to ensure the bank’s Board of Directors (Board) and management operated
the bank in a safe and sound manner.

This report does not contain formal recommendations. Instead, as major causes, trends,
and common characteristics of financial institution failures are identified in our reviews,
we will communicate those to management for its consideration. As resources allow, we
may also conduct more in-depth reviews of specific aspects of the FDIC’s supervision
program and make recommendations, as warranted. Appendix 1 contains details on our
objectives, scope, and methodology; Appendix 2 contains a glossary of terms; and
Appendix 3 contains a list of acronyms used in this report. Appendix 4 contains the
Corporation’s comments on this report.


Background
The Bank of Wyoming was a state-chartered, nonmember bank established in November
1978 as the First State Bank of Thermopolis. The bank assumed its current name in
January 2006. Bank of Wyoming was wholly-owned by State Holding Company, which
also owned two non-bank subsidiaries: (1) State Holding Company Statutory Trust,
established in 2005 to facilitate the issuance of trust preferred securities and (2) Hot
Springs County Title Company, Inc., which was sold in 2008. The bank’s Chairman of
the Board controlled the State Holding Company with approximately 51 percent of the
outstanding stock. The bank opened a branch in Casper, Wyoming in 2005, which was
later sold to another bank in March 2009, and did not have any other branches at the time
of closing. Table 1 provides details on Bank of Wyoming’s financial condition as of
June 30, 2009 and for the 4 preceding calendar years.

Table 1: Selected Financial Information for the Bank of Wyoming
Financial Measure                      Jun-2009        Dec-2008        Dec-2007   Dec-2006    Dec-2005
Total Assets ($000s)                    $70,188*       $118,376        $114,914    $93,239     $70,721
Total Loans ($000s)                      $59,341        $86,672         $86,574    $76,698     $55,979
Total Deposits ($000s)                   $66,598       $100,890        $100,904    $77,322     $62,541
Total Brokered Deposits ($000s)           $7,990        $25,590         $30,031    $29,903     $12,306
Brokered Deposits/Total Deposits         12.00%         25.36%          29.76%     38.67%      19.68%
Net Income (Loss) ($000s)               ($4,593)       ($1,428)         $1,560     $1,515      $1,428
Source: Uniform Bank Performance Reports (UBPR) for Bank of Wyoming.
*Asset decrease reflects March 2009 sale of branch.



Causes of Failure and Material Loss
The Bank of Wyoming’s failure can be attributed to the Board and management’s pursuit
of loan growth funded significantly with brokered and other non-core deposits. The
bank’s loan portfolio was concentrated in commercial real estate (CRE) and acquisition,
construction, and development (ADC) loans made to out-of-area borrowers, obtained


                                                2
through loan brokers and participations3 purchased. Poor underwriting practices and
weak loan administration, as well as the deterioration of some real estate markets,
translated quickly into a significant decline in the quality of the institution’s loan
portfolio and led to unacceptable levels of classified assets characterized by increasing
delinquency and nonperformance. In addition, the Bank of Wyoming’s Board and
management failed to implement adequate risk management practices to manage the
bank’s rapid growth and reliance on non-core funding. Ultimately, the Bank of
Wyoming’s poor asset quality, strained liquidity, insufficient earnings, and inadequate
capital all contributed to its failure.

The cause of Bank of Wyoming’s failure is evidenced by its adversely classified assets.
As of the June 2007 examination, adversely classified assets had increased since the prior
examination almost 140 percent to $3.8 million, which represented 43 percent of the total
of Tier 1 Capital and the allowance for loan and lease losses (ALLL). In addition, ADC
and CRE represented 179 and 334 percent of the bank’s total risk-based capital,
respectively. Further, the June 2007 examination determined that total loans made to
borrowers outside of Wyoming (out-of-area loans) represented 513 percent of Tier 1
Capital and 52 percent of total loans. As of the April 2008 examination, adversely
classified assets had increased further by 252 percent and represented 127 percent of
Tier 1 Capital and ALLL. Past-due loans, at 6.21 percent of total loans, exceeded the
bank’s peer group by almost two and one-half times. By the March 2009 final
examination, the condition of the bank deteriorated to a critically deficient state that
represented an imminent threat to its viability.

ADC and CRE Loan Concentrations

The Bank of Wyoming’s management decision to concentrate in ADC and CRE lending
to out-of-area borrowers was the principal factor leading to the bank’s deteriorating
financial condition and subsequent failure. Further, deficient oversight of its ADC and
CRE loan concentrations negatively impacted the bank’s ability to effectively manage
operations in a declining economic environment. Figure 1 illustrates the general
composition and growth of the Bank of Wyoming’s loan portfolio in the years preceding
the institution’s failure. As reflected in the figure, concentrations in ADC and other CRE
loans were significant – ranging from 40 percent to 49 percent of gross loans and leases
over the period 2004 to 2008.




3
 Participation loans are made by more than one lender and serviced by the lead bank or lead lender.
Participation loans make it possible for smaller banks to finance larger borrowers when the gross loan
amount involved exceeds the legal lending limit of an individual bank.


                                                     3
Figure 1: Composition of the Bank of Wyoming’s Loan Portfolio

                                                                                               $86     $87
                                        $90
                                                        All Other Loans
                                                                                       $77
                                        $80             Other CRE Loans
                                                        ADC Loans
    Gross Loans and Leases (Millions)




                                        $70                                                                   $59
                                                                                                     $49
                                                                           $56                $52
                                        $60                    $51                   $43

                                        $50

                                                                          $31                                $36
                                        $40         $33     $26

                                        $30                                                          $19
                                                                                     $17      $18
                                                  $26
                                        $20                               $17                                $12
                                                            $19

                                        $10                                          $17             $19
                                                                                              $16
                                                  $7                      $8                                 $11
                                                             $6
                                                  $0
                                        $0
                                              Dec-2003 Dec-2004 Dec-2005 Dec-2006 Dec-2007 Dec-2008 Jun-2009
                                                                               Period Ended


Source: OIG analysis of UBPRs and Consolidated Reports of Condition and Income (Call Reports) for the
Bank of Wyoming.


Financial Institution Letter (FIL) 104-2006 entitled, Concentrations in Commercial Real
Estate Lending, Sound Risk Management Practices, dated December 12, 2006,
recognizes that there are substantial risks posed by CRE concentrations and, in particular,
ADC concentrations. Such risks include unanticipated earnings and capital volatility
during a sustained downturn in the real estate market. The December 2006 guidance
defines institutions with significant CRE concentrations as those reporting loans for
construction, land and development, and other land (i.e., ADC) representing 100 percent
or more of total capital; or institutions reporting total CRE loans representing 300 percent
of more of total capital, where the outstanding balance of CRE has increased by
50 percent or more during the prior 36 months. Due to the risks associated with CRE and
ADC lending, regulators consider institutions with significant CRE and ADC
concentrations to be of greater supervisory concern.

As shown in Table 2, the Bank of Wyoming’s concentrations in ADC loans consistently
represented more than 100 percent of Total Capital from 2005 to 2009, exceeding the
criteria for institutions warranting greater supervisory concern once the FDIC’s guidance
took effect in December 2006. In addition, ADC loans as a percent of the bank’s total



                                                                                 4
capital and total loans were significantly above its peer group averages during the same
period.

Table 2: Bank of Wyoming’s ADC Concentrations Compared to Peer Group
                          ADC Loans as a                                  ADC Loans as a
                      Percent of Total Capital                         Percent of Total Loans
      Period
      Ended                                 Bank of                                        Bank of
                  Bank of      Peer                               Bank of       Peer
                                          Wyoming                                          Wyoming
                  Wyoming     Group                               Wyoming      Group
                                          Percentile                                      Percentile
    Dec 2005        102.99          18.61              94           15.00           3.14                94
    Dec 2006        195.60          20.45              97           21.93           3.46                96
    Dec 2007        165.90          39.79              94           18.44           6.30                89
    Dec 2008        203.40          37.01              96           21.60           5.97                93
    Jun 2009        258.00          20.00              99           18.61           3.55                97
Source: UBPR data for Bank of Wyoming.

Further, consistent with the December 2006 guidance, the Bank of Wyoming’s CRE
concentrations also warranted greater supervisory concern in 2008 and 2009, as shown in
Table 3. In addition, CRE loans as a percent of the bank’s total capital and total loans
were significantly above the bank’s peer group averages from 2007 to 2009.

Table 3: Bank of Wyoming’s CRE Concentrations Compared to Peer Group*
                          CRE Loans as a                                  CRE Loans as a
                      Percent of Total Capital                         Percent of Total Loans
      Period
      Ended                                 Bank of                                        Bank of
                  Bank of      Peer                               Bank of       Peer
                                          Wyoming                                          Wyoming
                  Wyoming     Group                               Wyoming      Group
                                          Percentile                                      Percentile
    Dec 2007        222.64           96.43             82           24.74           15.00               71
    Dec 2008        347.42          100.59             95           36.89           16.94               90
    Jun 2009        463.23           72.69             99           33.42           13.13               91
Source: UBPR data for the Bank of Wyoming.
* Percentages for Bank of Wyoming and peers exclude owner-occupied CRE.

Between October 2003 and December 2004, the Bank of Wyoming increased its total
loans by approximately 85 percent. Examiners noted this growth during the March 2005
examination but stated that the institution’s risk management appeared to be accurately
identifying problem credits in a timely fashion. Notably, as a result of the March 2005
examination, examiners (1) downgraded the bank’s “Capital adequacy” component
rating4 to a “3” based on the declining trend in capital ratios caused by asset growth and
the increased risk profile and (2) required the bank to submit a formal capital plan.
During the July 2006 examination, FDIC examiners noted that the bank continued to
experience significant asset growth from several large out-of-area loans with portions
participated to other banks. Examiners noted that the loans were well diversified by

4
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.


                                                   5
repayment source, loan type, as well as geographically, and that the bank’s Board
established a limit on out-of-area loans at 40 percent of total loans and 350 percent of
total capital. Nevertheless, by the June 2007 examination, the financial condition of the
institution had deteriorated to a less than satisfactory condition due to a significant
decline in asset quality and an increase in risk exposure in the loan portfolio.

Loan Underwriting and Credit Administration

Weaknesses in the Bank of Wyoming’s loan underwriting and credit administration
practices were a contributing factor to the asset quality problems that developed in the
institution’s loan portfolio, specifically CRE and out-of-area lending, when the real estate
market began to deteriorate in 2007. Examiners’ concerns with the bank’s credit
administration practices began during the 2007 examination and noted that:

   •   Nearly $2.6 million in loans were over 90 days past-due, while still accruing
       interest.
   •   Loans classified as Loss at the prior examination and those identified internally
       were not properly charged off in a timely manner or as required by Call Report
       instructions.
   •   The volume of loan file documentation exceptions was excessive.
   •   Valuations and verifications of non-real estate collateral were lacking.
   •   Credit and borrower analysis was marginal and needed to be enhanced.
   •   Procedures and controls for obtaining, reviewing, and approving real estate
       appraisals were weak and needed to be strengthened.
   •   The loan policy was inadequate because it did not address all of the types of
       lending the bank engaged in.
   •   The loan portfolio had large concentrations in land development and construction,
       and commercial real estate lending, which exposed the bank to additional risk.

In addition, the bank was cited for an excessive amount of lending-related apparent
violations of laws and contraventions of the FDIC’s Statement of Policies, including
three apparent violations of Regulation O, which governs extensions of credit to officers
and directors of a bank, and numerous violations of FDIC Rules and Regulations
Part 323 – Appraisals (Part 323).

The 2008 and 2009 examinations further identified weak underwriting practices, which
included:
    • renewing or extending credit without full collection or capitalization of interest;
    • extending credit through the use of overdrafts;
    • extending credit without appropriate controls over construction financing;
    • extending credit without formal take-out commitments;
    • extending credit without obtaining complete and current financial information;
    • extending credit inadequately supported by cash flow or collateral, or both;
    • extending credit to highly-leveraged or unproven start-up companies; and
    • over-relying on borrower’s net worth without considering the borrower’s
       liquidity.


                                             6
Reliance on Non-Core Funding

In the years preceding its failure, the Bank of Wyoming became increasingly dependent
on non-core funding sources – including brokered and large time deposits – to fund loan
growth and maintain adequate liquidity. Table 4 provides details on the bank’s non-core
funding sources during the years prior to its failure. When properly managed, such
funding sources offer important benefits, such as ready access to funding in national
markets when core deposit growth in local markets lags planned asset growth. However,
non-core funding sources also present potential risks, such as higher costs and increased
volatility. According to the DSC Risk Management Manual of Examination Policies,
placing heavy reliance on potentially volatile funding sources to support asset growth is
risky because access to these funds may become limited during distressed financial or
economic conditions. Under such circumstances, institutions could be required to sell
assets at a loss in order to fund deposit withdrawals and other liquidity needs.

Table 4: Bank of Wyoming’s Non-Core Funding Sources
                  Time                             Total Federal
              Deposits of                         Home Loan Bank
              $100,000 or     Brokered              Borrowings
   Period         More         Deposits               (FHLB)
  Ending         ($000s)        ($000s)               ($000s)
 Jun-09             $26,914         $7,990                    $220
 Mar-09             $22,961        $16,161                  $8,728
 Dec-08             $13,977        $25,590                  $8,732
 Dec-07             $10,964        $30,031                  $4,239
 Dec-06             $31,600        $29,903                  $7,405
 Dec-05             $18,553        $12,306                    $276
 Dec-04             $11,349        $13,097                  $3,017
 Dec-03                 N/A           N/A                      N/A
Source: UBPRs for Bank of Wyoming.

Further, the Bank of Wyoming’s net non-core funding dependence ratio5 significantly
and consistently outpaced its peer group, as illustrated in Figure 2. From December 2006
until June 2009, the institution’s net non-core funding dependence ratio was in the 87th to
99th percentile, and its brokered deposit levels were in the 95th to 99th percentile
compared to its peer group. These ratios indicate that the institution’s dependence on
potentially volatile funding was consistently higher than almost all of the other
institutions in its peer group.




5
  The net non-core funding dependence ratio is a measure of the degree to which an institution relies on
non-core funding to support longer-term assets (e.g., loans that mature in more than one year). An elevated
ratio reflects heavy reliance on potentially volatile funding sources that may not be available in times of
financial stress.


                                                    7
Figure 2: Bank of Wyoming’s Net Non-Core Funding Dependence Ratio Compared
  to Peer Group


                               60                       54%
        Net Non-Core Funding
                                                                                            49%
                               50
                                                                                                   Peer Group
                                                                      39%        38%               Average
                               40    35%
                                                                                                   Bank of Wyoming
                                               25%
                               30
                                                                                21%
                                                                      19%                  15%
                               20
                                     11%       11%        11%
                               10

                               0
                                    Dec-04   Dec-05     Dec-06       Dec-07    Dec-08     Jun-09
                                                           Period Ending

Source: OIG analysis of the UBPRs for the Bank of Wyoming.

WDB examiners commented in the March 2005 examination report that traditional core
deposits had not kept pace with the bank’s strong loan growth and were not readily
attainable within its marketplace. As a result, the bank’s non-core funding dependence
ratio increased from 18 percent to 45 percent from December 31, 2003 to March 31,
2006.

FDIC examiners also noted the bank’s reliance on non-core funding in the July 2006
examination; however, they stated that sufficient funding sources were available and that
management had the ability to slow loan growth to ease liquidity constraints. During the
2006 and 2007 examinations, examiners cited other factors potentially mitigating the
bank’s funding and liquidity concerns. These factors included:

    •                      a new branch in Casper, Wyoming, that the bank President believed would
                           generate sufficient core deposits to replace some brokered deposits and
                           borrowings;
    •                      adequate liquidity management; and
    •                      a sufficient matching of the bank’s asset maturities to liability maturities.

By 2007, however, liquidity continued to tighten as a result of continued loan growth
financed with brokered deposits and other non-core funding. By year-end 2007, the
bank’s borrowing capacity with the FHLB was significantly reduced as the quality of
loans the bank pledged as collateral deteriorated. Three months later, in March 2008, the
FHLB further discounted the market value of three pledged securities, resulting in a
54 percent reduction in total borrowing capacity, from $24.3 million in January 2008 to
$11.2 million in March 2008.

The April 2008 examination revealed a continuing pattern of heavy reliance on non-core
funding, despite a Memorandum of Understanding (MOU) issued in September 2007,
which required the bank to (1) not increase the amount of brokered deposits from the
amount outstanding on the effective date of the MOU, (2) establish an appropriate range


                                                                 8
for the bank’s net non-core funding dependence ratio, and (3) submit written plans for
reducing the bank’s net non-core dependence ratio and reducing its reliance on brokered
deposits. Specifically, examiners found that although brokered deposit levels had slightly
decreased, the bank had purchased deposits from the Certificate of Deposit Account
Registry Service (CDARS) Program,6 which are considered to be brokered deposits per
Part 337.6 of the FDIC Rules and Regulations. Therefore, as of March 31, 2008,
brokered deposits of $31.0 million included $18.7 million in traditional brokered deposits
and $12.3 million in time deposits through the CDARS program. In addition, examiners
reported the bank’s liquidity management, liquidity policy, and reporting needed
improvement.

In April 2008, the bank’s Board approved an amended Asset Liability and Funds
Management Policy to establish limits on net non-core fund dependence (48 percent) and
brokered deposits limits (30 percent, excluding CDARS deposits). However, examiners
found both limits to be “unduly” high and not consistent with the intent and requirements
of the MOU. In addition, the bank had still not prepared an acceptable written plan to
reduce the bank’s reliance on brokered deposits. The Bank of Wyoming subsequently
stipulated to a Cease and Desist Order (C&D), effective October 17, 2008, which
repeated requirements to develop and implement (1) a policy with an appropriate range
for the bank’s net non-core funding dependence ratio, (2) contingency funding plans, and
(3) a written plan to reduce the bank’s net non-core fund dependence ratio. Pursuant to
the FDIC’s Rules and Regulations, the C&D lowered the Bank of Wyoming’s PCA
capital category from Well Capitalized to Adequately Capitalized. As a result, the bank
was restricted from accepting, renewing, or rolling over brokered deposits without a
waiver from the FDIC.

In the January 2009 visitation, FDIC and WDB examiners determined the bank’s
liquidity level was deficient and continuing to decline because of its inability to obtain,
renew, or roll over brokered deposits, and reduced borrowing capacity. As the bank
exited out of its brokered deposit contracts, it pursued 6- and 12-month certificates of
deposit via an Internet listing service, certificates of deposit from other Wyoming banks,
and a collateralized borrowing line with the Federal Reserve Bank of Kansas City.
However, because the FDIC had assigned it a capital category of Adequately Capitalized,
the bank was subject to FDIC Rules and Regulations under Part 337 – Unsafe and
Unsound Banking Practices (Restrictions on the Use of Brokered Deposits and High-
Rate Deposits),7 which limits the deposit rates that can be paid by institutions that are less
than Well Capitalized. The Bank of Wyoming acknowledged non-compliance with
Part 337, and examiners required the certificates of deposit to be reported as brokered
deposits on the bank’s March 31, 2009 Call Report.

6
  CDARS is a program in which depositors may attain full FDIC insurance on deposits of up to
$50 million.
7
  FDIC’s Rules and Regulations Part 337, Unsafe and Unsound Banking Practices, limits the deposit rates
that can be paid by institutions that are less than Well Capitalized In general, any insured depository
institution that is not Well Capitalized may not pay an effective yield on any deposit that exceeds 75 basis
points of either of the following rates, depending on its circumstances: (1) the effective yield paid on
comparable deposits within its normal market area or (2) 120 percent of the current yield on similar
maturity U.S. Treasury obligations.


                                                      9
On January 29, 2009, as required by the C&D, the bank’s Board approved a revised
Interest Rate Risk and Asset/Liability Management Policy, which established maximum
limits for brokered deposits, the net non-core dependence ratio, the loans-to-deposit ratio,
the loans-to-assets ratio, and a liquidity ratio, which the FDIC deemed reasonable.
However, the FDIC noted the bank was operating outside the new policy limits and had
yet to submit an adequate written plan to reduce the bank’s net non-core dependence
ratio. At that time, brokered deposits made up 25 percent of the total deposit base and
53 percent of the non-core funding. At the March 2009 examination, the FDIC
concluded that the Bank of Wyoming’s liquidity position was deficient and represented
an ongoing threat to the institution. Critically deficient asset quality severely limited the
bank’s ability to obtain Federal Funds lines and other borrowings. At this final
examination, examiners concluded that the bank’s asset quality, capital, earnings, and
management were also critically deficient and outside financial support would be
required to continue its viability.


The FDIC’s Supervision of the Bank of Wyoming
Between 2005 and 2009, the FDIC and the WDB conducted regular examinations of the
Bank of Wyoming in which they identified risks in the bank’s operations. These risks
were brought to the attention of the institution’s Board and management through regular
discussions and correspondence, Reports of Examination (ROE), visitations, offsite
reviews, and informal and formal enforcement actions. The FDIC and the WDB
recognized the growth in ADC and CRE lending funded primarily with brokered deposits
and time deposits of $100,000 or more, and issued an MOU, effective September 2007, in
an effort to stop unsafe and unsound practices and deficiencies related to the bank’s
aggressive growth strategy. Following further deterioration in the bank’s overall
condition and failure to implement all of the recommendations of the MOU, the Bank of
Wyoming stipulated to a C&D that was effective October 17, 2008. The C&D remained
in effect until the bank was closed in July 2009. The FDIC and the WDB closely
monitored the Bank of Wyoming’s condition after the C&D was issued until the
institution was closed.

The Bank of Wyoming’s growth in ADC and CRE lending funded with volatile, non-core
deposits resulted in a high-risk profile for the institution. The FDIC’s supervisory
response to these risks was generally timely and consistent with DSC policies and
practices. However, while bank management assured examiners they had taken and
planned actions that mitigated the non-core funding and concentration risks identified by
examiners at the 2006 examination, management failed to follow through on a
commitment to slow loan growth following that examination. Loan growth, coupled with
a decline in the real estate market and weak loan underwriting and credit administration
practices identified in subsequent examinations, contributed to the deterioration in the
bank’s financial condition. This outcome brings into question whether earlier and/or
more formal supervisory action may be warranted in such circumstances, i.e., an
extended pattern of loan growth and non-core funding above peer group averages.




                                             10
Supervisory History

From March 2005 through March 2009, the FDIC and WDB collectively conducted five
full-scope examinations, two visitations, and two offsite reviews of the Bank of
Wyoming. Table 5 summarizes key information pertaining to the FDIC’s and the WDB’s
supervision of the Bank of Wyoming until the institution failed, including the
institution’s supervisory ratings.

Table 5: Bank of Wyoming’s Supervisory History from 2005 to 2009
                                         Supervisory
 Examination Start
                           Agency          Ratings           Supervisory Action/Explanation
      Date
                                           (UFIRS)
     03/21/2005             WDB            322122/2                          N/A
     07/17/2006             FDIC           221122/2                          N/A
     12/31/2006             FDIC             N/A          Reviewed brokered deposits and out-
    Offsite Review                                        of-area participations. Recommended
                                                          that the next examination be
                                                          accelerated to no later than July 2007.
     03/31/2007             FDIC              N/A         Reviewed brokered deposits and out-
    Offsite Review                                        of-area participations. Recommended
                                                          an on-site visit approximately 6 months
                                                          from the date of the MOU issued as a
                                                          result of the June 2007 examination, to
                                                          determine progress.
      06/18/2007         FDIC/WDB          333332/3       Issued an MOU.
      12/17/2007         FDIC/WDB            N/A          Reviewed the condition of the bank and
       Visitation                                         the Board’s overall compliance and
                                                          progress with the MOU.
      04/28/2008         FDIC/WDB          344332/4       Issued a C&D.
      01/12/2009         FDIC/WDB            N/A          Reviewed Board’s compliance with the
       Visitation                                         C&D, and asset quality, ALLL,
                                                          earnings, capital, and liquidity.
      03/02/2009         FDIC/WDB          555543/5       None.
Source: The FDIC’s Virtual Supervisory Information on the Net and ROEs for the Bank of Wyoming.

Offsite Reviews and Visitations

In addition to examinations, the FDIC and WDB provided continuing monitoring of the
Bank of Wyoming through offsite reviews and visitations.

December 2006 Offsite Review. FDIC examiners conducted an offsite review of the
bank in response to concerns noted at the previous examination, particularly that the loan
portfolio had high classifications and the practice of using brokered deposits to purchase
out-of-area participations was alarming to the examiners. According to the 2005
examination report, total loans had grown approximately 85 percent since the last
examination, while the level of adversely classified assets had grown over 144 percent.
In addition, the 2006 examination report identified that the bank’s reliance upon non-core


                                                  11
funding sources had significantly increased from 18 percent to 45 percent as of March 31,
2006. The offsite review recommended that the next examination be accelerated, as
scheduling permitted, to no later than July 2007.

March 2007 Offsite Review. Based upon the same issues addressed in the December
2006 offsite review, this review was conducted concurrently with the June 2007 full-
scope examination. Examiners recommended that an on-site visit be conducted
approximately 6 months from the date the MOU was issued as a result of the June 2007
examination, to determine the bank’s progress in addressing the MOU provisions.

December 2007 Visitation. This joint FDIC and WDC visitation was conducted to
specifically review the condition of the institution and the Board’s overall compliance
and progress with the MOU. Emphasis was placed on reviewing loan underwriting,
credit administration, and compliance with applicable laws and regulations. Examiners
reported that the institution’s asset quality continued to deteriorate due to increasing risk
in the loan portfolio. Adversely classified assets had almost doubled since the June 2007
examination and represented a moderately high 73 percent of the institution’s Tier 1
Capital and reserves. The majority of the credits were related to participations. In
addition, past-due loans significantly increased, and the institution’s Watch List,8 as of
November 30, 2007, was inaccurate. Examiners stated that management had developed
but not yet implemented a new loan risk rating system and was struggling with a plan to
reduce the reliance on brokered deposits and lower the net non-core funding dependence
ratio. However, management stated that no brokered deposits had been purchased or
renewed since mid-2006. Examiners also stressed that the bank’s Board and
management must concentrate their efforts on correcting the asset quality problems.
Further, examiners reported that management was in compliance with only 5 of the 13
provisions of the MOU.

January 2009 Visitation. This second joint visitation found that the deterioration of the
bank’s overall condition had accelerated, resulting in greater supervisory concern. The
report stated that “the volume and severity of problems may be beyond management’s
ability to control or correct.” Examiners also noted that:

    •    Asset classifications had accelerated to nearly 256 percent of Tier 1 Capital and
         ALLL. Past-due and nonaccrual loans represented 22.3 percent of gross loans as
         compared to 6.2 percent at the previous examination.
    •    Earnings were deficient due to the large amount of loan loss provisions needed to
         cover loans losses during 2008.
    •    Liquidity was deficient and borrowing capacity was strained because of the
         bank’s inability to obtain, renew, or roll over brokered deposits.
    •    The Tier 1 Capital to total asset ratio was well below the C&D requirement of
         9.5 percent.



8
 A Watch List is a detailed loan report that represents the bank’s internal grading or assessment of quality
of its loan portfolio.


                                                     12
   •   The bank was not in compliance with 18 of 22 provisions of the C&D issued in
       October 2008.

During the period 2005 through 2009, the FDIC and the WDB pursued one informal
enforcement action and one formal enforcement action to address weak risk management
practices identified by the examiners.

September 2007 MOU. Issued as a result of the June 2007 examination, the MOU
contained six actions the bank needed to address relating to its loan portfolio.
Specifically, the MOU required the bank to (1) develop a plan to correct deficiencies in
the assets listed for Special Mention; (2) reduce the assets classified as Substandard to not
more than $2.5 million within 180 days; (3) not extend directly or indirectly any
additional credit to a borrower whose loan or other credit had been classified Substandard
and was uncollected, unless it was approved by the Board; (4) within 30 days from the
date of the MOU, maintain an adequate ALLL; (5) within 10 days from the date of the
MOU, charge-off all assets classified as Loss as identified in the ROE; and (6) amend its
loan policy to address all deficiencies noted in the ROE. Additionally, the MOU required
the Bank of Wyoming’s management to maintain Tier 1 Capital at 8 percent, restrict
dividend payments, reduce the non-core dependence ratio, submit a plan to restrict and
reduce reliance on brokered deposits, and develop and implement a new loan policy and a
new liquidity policy.

October 2008 C&D. This corrective action was taken in response to the April 2008
examination and the Board and management’s failure to correct weaknesses in
compliance with the outstanding MOU. The C&D contained 22 affirmative actions that
required the bank to, among other things, retain qualified management, increase Board
participation in the affairs of the bank, and increase Tier 1 Capital to equal or exceed
9.5 percent of the bank’s total assets.

Supervisory Concern Related to ADC and CRE Loan Concentrations

The Bank of Wyoming’s consistent growth in ADC and CRE lending resulted in a high-
risk loan profile for the institution. Although examiners noted the increasing risk in
examination reports prior to 2007, in their view, the overall condition of the bank and
other factors sufficiently mitigated that risk, and supervisory action was not warranted
nor could it be supported before 2007. Unfortunately, the combination of loan growth,
the real estate decline, and poor underwriting and credit administration practices caused a
rapid deterioration in the bank’s portfolio that was evident at the 2007 examination.
Supervisory actions taken at that time and later could not sufficiently mitigate the bank’s
vulnerability to substantial losses.

March 2005 and July 2006 Examinations

Examiners noted the bank’s loan growth starting with the March 2005 examination and
criticized existing capital levels, which were deemed less than satisfactory, and required
bank management to develop a capital plan. In the July 2006 examination report,
examiners raised concerns over continued asset growth from out-of-area lending, but


                                             13
found the loans to be well diversified by repayment source and loan type, as well as
geographically. As discussed earlier, the bank’s ADC concentration exceeded the
parameters for concentrations warranting greater concern at that time, recognizing that
the FDIC’s guidance on Concentrations in Commercial Real Estate Lending, Sound Risk
Management Practices had not yet been issued. In addition, ADC loans as a percentage
of the bank’s total capital and total loans were significantly above its peer group
averages.

June 2007 Examination

By the June 2007 examination, the financial condition of the institution had deteriorated
due to a decline in asset quality as evidenced by a significant increase in adversely
classified assets. As a result of this examination, an MOU was issued in September 2007,
as previously described. According to the FDIC, stronger and earlier supervisory actions
were not taken regarding the bank’s concentrations because (1) while the bank’s risk
profile was increasing, the condition of the bank prior to the 2007 examination remained
satisfactory; (2) the bank received $3 million in additional capital in late 2005 to mitigate
the increased risk profile, including ADC and CRE loan concentrations; (3) the real estate
markets and U.S. economy were still healthy prior to 2007; and (4) the FDIC guidance on
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
was not issued until December 2006.

April 2008 Examination


The April 2008 examination reported that asset quality had deteriorated to a level that
raised significant regulatory concern and posed considerable risk to the institution. Poor
credit decisions and underwriting practices, along with deteriorating market conditions,
led to an increase in adversely classified items. Past-due loans, at 6.21 percent, exceeded
the bank’s peer group by almost two and one-half times. Management also failed to
correct 5 of the 13 deficiencies identified in the MOU, and a C&D was issued. The
January 2009 visitation reported that the condition of the bank had further deteriorated
and resulted in greater supervisory concern. The report stated that the volume and
severity of problems may have been beyond management’s ability to control or correct.
Examiners noted that Board and management actions were necessary to preserve the
soundness of the institution and encouraged the bank to take immediate action(s) to effect
compliance with the C&D and to track the progress closely. The examiners reported that
barring significant improvement in asset quality and profitability during 2009, continued
net losses were anticipated and would continue to erode capital.

Supervisory Concern Related to Reliance on Non-Core Funding

As early as 2005, examiners expressed concerns about the bank’s reliance on non-core
funding to support increased loan growth. Because the majority of this funding was from
brokered deposits, the FDIC encouraged the bank to monitor its capital position to ensure
the bank remained Well Capitalized, and brokered deposits would still be available as a
funding source. When examiners became alarmed at the July 2006 examination that the


                                             14
bank’s reliance on non-core funding sources had significantly increased, from 18 percent
to 45 percent, the FDIC responded by more closely monitoring the bank’s use of
brokered deposits through offsite monitoring in December 2006 and March 2007. The
results of the offsite monitoring caused examiners to recommend an accelerated
examination. In June 2007, examiners continued to express concern over an increasing
56 percent net non-core funding dependence ratio, with brokered deposits making up
40 percent of the institution’s total deposit base.

Despite the bank’s lack of responsive action to address repeated examiner concerns
regarding its reliance on non-core liabilities, examiners did not require the bank to reduce
its net non-core dependency ratio or set a policy with an appropriate range for the bank’s
ratio until the MOU in September 2007. According to the FDIC, the July 2006
examination cited several factors that mitigated the risk associated with the bank’s high
non-core dependence ratio. Specifically:

       •   Bank management anticipated that the new branch in Casper would generate
           sufficient core deposits to replace some brokered deposits.

       •   Bank management stated that it had the ability to slow loan growth to ease
           liquidity constraints.

       •   The bank had over $14 million in brokered deposits maturing beyond 2 years
           (over 50 percent of total brokered deposits), and the bank’s assets and liabilities
           were sufficiently matched. The use of longer-maturity brokered deposits and
           match-funding9 mitigated short-term liquidity risk.

The Casper branch did generate core deposits (it had nearly $20 million in deposits when
it was sold in March 2009); however, the bank’s loan growth was faster than the deposit
growth from this branch. In addition, management did not slow down loan growth as it
had committed to doing.

Further deterioration in the bank’s condition and failure to implement the MOU
provisions caused the FDIC and WDB to reiterate, in the April 2008 examination, that the
Board needed to be more proactive in (1) reducing the bank’s dependence on non-core
funding sources, (2) focusing on continued reduction in the volume of non-core
liabilities, (3) acquiring additional core deposits, and (4) maintaining more short-term
investments. This guidance was repeated in provisions in the October 2008 C&D.
However, at the time these supervisory actions were taken, the majority of the Bank of
Wyoming’s asset and non-core funding growth had already occurred. The deteriorating
economic environment, coupled with the declining quality of the loan portfolio, were
negatively impacting earnings and capital and seriously limiting the institution’s funding
alternatives. Ultimately, by early 2009, the bank’s liquidity risk continued to escalate and
its reputation became vulnerable.


9
    A bank is said to match-fund a loan or other asset by buying (taking) a deposit of the same maturity.


                                                       15
In retrospect, when a bank has an extended pattern of growth in, and dependence on, non-
core funding, as did the Bank of Wyoming, a more formal supervisory action may be
warranted that requires bank management to commit to a plan to reduce the institution’s
dependence on non-core funding sources.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. PCA establishes a system of restrictions and
mandatory and discretionary supervisory actions that are to be triggered depending on an
institution’s capital levels. Part 325, Capital Maintenance, of the FDIC’s Rules and
Regulations implements PCA requirements by establishing a framework for taking
prompt corrective action against insured nonmember banks that are not adequately
capitalized. Enforcement actions addressing the Bank of Wyoming’s capital deficiencies
were taken in accordance with PCA capital-related provisions. Based on the supervisory
actions taken, the FDIC properly implemented applicable PCA provisions of section 38
in a timely manner, as follows:

   •   Based on the preliminary results of the March 2009 examination, on April 2,
       2009, the FDIC sent the Bank of Wyoming a PCA letter notifying the bank that it
       was considered Undercapitalized and that it could not accept, renew, or roll over
       any brokered deposits. As of December 31, 2008, the bank’s capital ratios were:

           o Total Risk-Based Capital Ratio           6.68 percent
           o Tier 1 Risk-Based Capital Ratio          5.41 percent
           o Tier 1 Leverage Ratio                    3.92 percent

   •   The WDB issued a notice to restore impaired capital on April 29, 2009 and stated
       that the bank had 60 days to comply or it would be closed.

   •   On May 26, 2009, the FDIC sent a letter to the Bank of Wyoming’s Board
       notifying it that, despite its capital ratios having improved to Adequately
       Capitalized because of the sale of the bank’s Casper, Wyoming branch, the capital
       restoration plan was determined to be inadequate and would not be accepted due
       to, in part, the lack of any definitive capital infusion. The letter further stated that
       the bank was still considered Undercapitalized for PCA purposes and required the
       bank to submit a revised plan.

PCA’s role in mitigating the losses to the DIF was limited because PCA did not require
action until the institution was at serious risk of failure. The WDB closed the Bank of
Wyoming on July 10, 2009, due to its poor asset quality and deficient capital, and
appointed the FDIC as receiver.




                                             16
Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
January 15, 2010, the Director, DSC, provided a written response to the draft report.
That response is provided in its entirety as Appendix 4 of this report. DSC reiterated the
OIG’s conclusions regarding the cause of the Bank of Wyoming’s failure. With regard to
our assessment of supervision, DSC noted that the June 2007 examination resulted in a
recommendation for an MOU that became effective in September 2007, and that the
December 2007 joint visitation, which reviewed the bank’s overall condition and the
Board’s compliance and progress with the MOU, found that management was not in
compliance with all MOU provisions. Based on these findings, the FDIC accelerated the
next examination, at which time examiners determined that asset quality had further
deteriorated to a level that raised significant regulatory concern and took action through
an October 2008 formal enforcement action. Further, in its response, DSC stated that “In
recognition that strong supervisory attention is necessary for institutions with high
CRE/ADC concentrations and volatile funding sources, such as [the Bank of Wyoming],
DSC has issued updated guidance reminding examiners to take appropriate action when
these risks are imprudently managed.”




                                            17
                                                                               Appendix 1
                     Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from October 2009 to January 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit concentrated on the Bank of Wyoming’s operations from 2005
until its failure on July 10, 2009. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

     •   Analyzed ROEs and visitation reports prepared by the FDIC and the WDB from
         2005 to 2009.

     •   Reviewed the following:

           •   Bank data and correspondence maintained at DSC’s San Francisco Regional
               Office and Field Office.

           •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure.

           •   Pertinent DSC policies and procedures.




                                             18
                                                                                  Appendix 1
                      Objectives, Scope, and Methodology


     •   Interviewed the following officials:

           •   DSC management in Washington, D.C., the San Francisco Regional Office,
               and the Kansas City Regional Office.

           •   FDIC examiners from the Billings, Montana Field Office who participated in
               examinations and visitations of the Bank of Wyoming.

           •   Officials from the WDB to discuss the historical perspective of the
               institution, its examinations, and other activities regarding the state’s
               supervision of the bank.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand the Bank of Wyoming’s management controls
pertaining to causes of failure and material loss as discussed in the Board of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we analyzed documentation to
determine whether the FDIC had complied with provisions of PCA and performed
limited tests to determine compliance with certain aspects of the FDI Act. The results of
our analysis were discussed, where appropriate, in the report. Additionally, we assessed
the risk of fraud and abuse related to our objectives in the course of evaluating audit
evidence.




                                                19
                                                                                  Appendix 2
                               Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the
                    extent not provided for in a separate liability account, the ALLL should
                    also be sufficient to absorb estimated loan losses associated with off-
                    balance sheet loan instruments such as standby letters of credit.
Call Report         Consolidated Reports of Condition and Income (also known as the Call
                    Report) are reports that are required to be filed by every national bank,
                    state member bank, and insured nonmember bank pursuant to the Federal
                    Deposit Insurance Act. These reports are used to calculate deposit
                    insurance assessments and monitor the condition, performance, and risk
                    profile of individual banks and the banking industry.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound
                    practice or a violation of laws and regulations. A C&D may be
                    terminated when the bank’s condition has significantly improved and the
                    action is no longer needed or the bank has materially complied with its
                    terms.

Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Federal Home        One of 12 Federal Home Loan Banks from which financial institutions
Loan Bank           in America borrow funds to finance housing, economic development,
(FHLB)              infrastructure, and jobs.

Memorandum of       An informal corrective administrative action for institutions considered to
Understanding       be of supervisory concern, but which have not deteriorated to the point
(MOU)               where they warrant formal administrative action. As a general rule, an
                    MOU is to be considered for all institutions rated a composite 3.

Participation       Participation loans are made by more than one lender and serviced by the
Loans               lead bank or lead lender. Participation loans make it possible for smaller
                    banks to finance larger borrowers when the gross loan amount involved
                    exceeds the legal lending limit of an individual bank.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations, section 325.101, et. seq., implements section 38, Prompt
                    Corrective Action, of the FDI Act, 12 United States Code section
                    1831(o), by establishing a framework for taking prompt supervisory
                    actions against insured nonmember banks that are less than adequately


                                            20
                                                                              Appendix 2
                            Glossary of Terms

                 capitalized. The following terms are used to describe capital adequacy:
                 (1) Well Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                 (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

                 A PCA Directive is a formal enforcement action seeking corrective action
                 or compliance with the PCA statute with respect to an institution that falls
                 within any of the three categories of undercapitalized institutions.

Risk-Based       A “supplemental” capital standard under Part 325 of the FDIC Rules and
Capital          Regulations. Under the risk-based framework, a bank’s qualifying total
                 capital base consists of two types of capital elements, “core capital” (Tier
                 1) and “supplementary capital” (Tier 2).
Tier 1 (Core)    Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R. section
Capital          325.2 (A), as
                 The sum of:
                     • Common stockholder’s equity (common stock and related
                         surplus, undivided profits, disclosed capital reserves, foreign
                         currency translation adjustments, less net unrealized losses on
                         available-for-sale securities with readily determinable market
                         values);
                     • Non-cumulative perpetual preferred stock; and
                     • Minority interest in consolidated subsidiaries;
                 Minus:
                     • Certain intangible assets;
                     • Identified losses;
                     • Investments in securities subsidiaries subject to section 337.4;
                         and
                     • Deferred tax assets in excess of the limit set forth in section
                         325.5(g).
Tier 2           Tier 2 capital is defined in Part 325 of the FDIC Rules and Regulations,
(Supplemental)   and is generally the sum of:
Capital              • Allowances for loan and lease losses, up to a maximum of
                         1.25 percent of risk-weighted assets;
                     • Cumulative perpetual preferred stock, long-term preferred stock
                         and related surplus;
                     • Perpetual preferred stock (dividend is reset periodically);
                     • Hybrid capital instruments; and
                     • Term subordinated debt and intermediate-term preferred stock.

Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group
Report (UBPR)    performance. The report is produced by the Federal Financial Institutions
                 Examination Council for the use of banking supervisors, bankers, and the
                 general public and is produced quarterly from Call Report data submitted
                 by banks.




                                         21
                                                                    Appendix 3
                               Acronyms



ADC      Acquisition, Development and Construction

ALLL     Allowance for Loan and Lease Losses

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity

         to Market Risk

CDARS    Certificate of Deposit Account Registry Service

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FDIC     Federal Deposit Insurance Corporation

FHLB     Federal Home Loan Bank

FIL      Financial Institution Letter

MOU      Memorandum of Understanding

OIG      Office of Inspector General

PCA      Prompt Corrective Action

ROE      Report of Examination

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System

WDB      State of Wyoming Department of Audit, Division of Banking



                                        22
                                                                                                Appendix 4
                          Corporation Comments


FDII
Federal Deposit Insurinee Corporltion
55 17lh Sl NW. Washin. DC 202999                                Dovisi of SupelS ai Con Prolecn

                                                                January 15, 2010


TO: Stephen Beard
               Assistant Inspector General for Material Loss Reviews

FROM: Sandra L. Thompson
               Director

SUBJECT: Draft Audit Report Entitled, Material Loss Review of Bank of Wyoming,
           Thermopolis, Wyoming (Assignment No. 2009-068)

Pursuant  to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
Insurance Corporation's Offce oflnspector General (OIG) conducted a material loss review of
Bank of Wyoming (BOW) which failed on July 10,2009. This memorandum is the response of
the Division of Supervision and Consumer Protection (DSC) to the OIG's Draft Report (Report)
 received on December 23, 2009.

 The Reprt concludes BOW failed due to the Board's and management's aggressive pursuit of
 loan growth funded with brokered and other non-core deposits. BOW's management decision to
 concentrate the loan portfolio in commercial real estate (CRE) and acquisition, construction, and
 development loans (ADC), thrugh out-of-ar purchased loan participations, and its reliance on
 brokered deposits were the principal factors leading to BOW's deteriorating financial condition
 and failure. BOW's por underwriting practices of     bank-originated loans, overall weak loan
 administration, and deterioration of out-of-area real estate markets resulted in increased
 delinquencies and non-performing assets and a significant decline in loan quality. BOW did not
 have the capital to absorb the losses and adequately support its risk profile.


 As par of DSC's supervisory program, from March 2005 though March 2009, the FDIC and the
 State of Wyoming Division of Banking (WDB) jointly and separately conducted five full-scope
 examinations, two visitations, and two off-site reviews; all of which included recommendations
 regarding out-of-area participations and non-core funding.

 The June 2007 examination resulted in a recommendation for a Memorandum of            Understanding
 (MOU) that became effective in September 2007. The December 2007 joint visitation, which
 reviewed BOW's overall condition and the Board's compliance and progress with the MOU,
 found that management was only in compliance with 5 of        the 13 MOU provisions. Based on
 these findings, DSC accelerated the next examination. At       that time examiners found that stated

 asset quality had further deteriorated to a level that raised significant regulatory concern and
 posed considerable risk to BOW and DSC took action through an October 2008 formal
 enforcement action. In recognition that strong supervisory attention is necessary for instirutions
 with high CREADC concentrations and volatile funding sources, such as BOW, DSC has issued
 updated guidance reminding examiners to take appropriate action when these risks are
 imprudently managed.

 Thank you for the opportunity to review and comment on the Report.




                                                 23
